                            CTOR
                      SPE          GE
                 IN                     N
             F                              E
         O                                      R
     E




                                                A
 C




                                                    L
FI
OF




                                                        OFFICE OF INSPECTOR GENERAL
                                                             EXPORT-IMPORT BANK
                                                              of the UNITED STATES




                             EQUAL EMPLOYMENT OPPORTUNITY




                                                                           Special Report
                                                                          August 17, 2010
                                                                           OIG-SR-10-01
OFFICE OF INSPECTOR GENERAL           Export-Import Bank
                                      of the United States

  August 17, 2010


  MEMORANDUM

  TO: 	             Fred Hochberg, Chairman and President
                    Michael Cushing, Senior Vice President, Resource Management
                    Patrease Jones-Brown, Director, Equal Opportunity and Diversity Programs

  FROM:             	Jean Smith
                    Assistant Inspector General for Audit

  SUBJECT: 	        Equal Employment Opportunity

  This memorandum transmits Special Report OIG-SR-10-01, Equal Employment Opportunity.
  The review was initiated by the Office of Inspector General of the Export-Import Bank of the
  United States (Bank) to determine whether the Bank has policies in place to promote Equal
  Employment Opportunity and assess the degree to which the Equal Opportunity and Diversity
  Programs (EODP) Office is independent.

  The report contains two suggestions to strengthen the Bank’s efforts to support the government’s
  goal to provide equal opportunity in employment for all persons and to prohibit discrimination in
  employment. The Senior Vice President and General Counsel concurred with both suggestions.
  Appendix A of this report is the Senior Vice President and General Counsel’s formal response to
  this review.

  We appreciate the courtesies and cooperation provided to the auditors during the review. If you
  have any questions, please call me at (202) 565-3944.


  Attachment


  cc: 	   Audit Committee
          Alice Albright, Senior Vice President, Chief Operations Officer
          Jonathan Cordone, Senior Vice President and General Counsel
          John Simonson, Chief Financial Officer and Audit Liaison




                  811 Vermont Avenue, N.W. Washington, D.C. 20571
Equal Employment Opportunity                                                 OIG-SR-10-01 

                                    Special Report 




EXECUTIVE SUMMARY

The Office of Inspector General performed a limited review to address an inquiry from
Senator Charles E. Grassley on the adequacy of Export-Import Bank of the United States
(Ex-Im Bank) Equal Employment Opportunities (EEO) program. Our specific objectives
were to determine whether Ex-Im Bank has policies in place to promote EEO and assess
the degree to which the Equal Opportunity and Diversity Programs (EODP) Office is
independent.

We found that Ex-Im Bank has policies to promote EEO. However, the EODP Director
should schedule a technical assistance review to be performed by the U.S. Equal
Employment Opportunity Commission. This review was originally scheduled for March
2010 but was cancelled by the Director.

Because the EODP Director does not report directly to the agency head, Ex-Im Bank is
exposed to the appearance that the EODP Office is not independent. Currently, the
EODP Director reports to the Director of Human Resources and Senior Vice President of
Resource Management. To strengthen Ex-Im Bank’s efforts in accomplishing its EEO
mission, we suggest that the Chairman and President direct the EODP Director to report
directly to the Chairman and President.

The Senior Vice President and General Counsel stated that Ex-Im Bank will implement
the suggested actions.




                                           i              Office of Inspector General
                                                              Export-Import Bank of the United States
Equal Employment Opportunity                                                                               OIG-SR-10-01 

                                                    Special Report 




                                             TABLE OF CONTENTS


EXECUTIVE SUMMARY ................................................................................................. i


I.       BACKGROUND .................................................................................................... 1


II.      OBJECTIVES ......................................................................................................... 3


III.     SCOPE AND METHODOLOGY .......................................................................... 3


IV.      FINDINGS AND SUGGESTIONS........................................................................ 3 

         A. 	 Review of the Effectiveness of the Equal Employment Opportunity and 

              Diversity Programs is Needed ........................................................................ 3 

              Suggestion 1.................................................................................................... 4 

              Management Response ................................................................................... 4


         B. 	 Independence of the Office of Equal Opportunity and Diversity Programs 

              Needs Strengthening ....................................................................................... 4 

              Suggestion 2.................................................................................................... 5 

              Management Response ................................................................................... 5


APPENDIX A:                MANAGEMENT RESPONSE........................................................... 6 





                                                              ii	                     Office of Inspector General
                                                                                            Export-Import Bank of the United States
Equal Employment Opportunity                                                      OIG-SR-10-01 

                                       Special Report 




I.     BACKGROUND

Title 29, subtitle B, chapter XIV, part 1614--Federal Sector Equal Employment
Opportunity (EEO) applies to Ex-Im Bank and is presented below.

Section 1614.101 General policy.
(a) It is the policy of the government of the United States to provide equal opportunity in
employment for all persons, to prohibit discrimination in employment because of race,
color, religion, sex, national origin, age or handicap and to promote the full realization of
equal employment opportunity through a continuing affirmative program in each agency.

(b) No person shall be subject to retaliation for opposing any practice made unlawful by
title VII of the Civil Rights Act (title VII) (42 U.S.C. 2000e et seq.), the Age
Discrimination in Employment Act (ADEA) (29 U.S.C. 621 et seq.), the Equal Pay Act
(29 U.S.C. 206(d)) or the Rehabilitation Act (29 U.S.C. 791 et seq.) or for participating in
any stage of administrative or judicial proceedings under those statutes.

Section 1614.102 Agency program.
(a) Each agency shall maintain a continuing affirmative program to promote equal
opportunity and to identify and eliminate discriminatory practices and policies. In support
of this program, the agency shall:
(1) Provide sufficient resources to its equal employment opportunity program to ensure
efficient and successful operation;
(2) Provide for the prompt, fair and impartial processing of complaints in accordance
with this part and the instructions contained in the Commission's Management Directives;
(3) Conduct a continuing campaign to eradicate every form of prejudice or discrimination
from the agency's personnel policies, practices and working conditions;
(4) Communicate the agency's equal employment opportunity policy and program and its
employment needs to all sources of job candidates without regard to race, color, religion,
sex, national, origin, age or handicap, and solicit their recruitment assistance on a
continuing basis;
(5) Review, evaluate and control managerial and supervisory performance in such a
manner as to insure a continuing affirmative application and vigorous enforcement of the
policy of equal opportunity, and provide orientation, training and advice to managers and
supervisors to assure their understanding and implementation of the equal employment
opportunity policy and program;
(6) Take appropriate disciplinary action against employees who engage in discriminatory
practices;
(7) Make reasonable accommodation to the religious needs of applicants and employees
when those accommodations can be made without undue hardship on the business of the
agency;



                                              1                Office of Inspector General
                                                                   Export-Import Bank of the United States
Equal Employment Opportunity                                                     OIG-SR-10-01 

                                      Special Report 



(8) Make reasonable accommodation to the known physical or mental limitations of
qualified applicants and employees with handicaps unless the accommodation would
impose an undue hardship on the operation of the agency's program;
(9) Provide recognition to employees, supervisors, managers and units demonstrating
superior accomplishment in equal employment opportunity;
(10) Establish a system for periodically evaluating the effectiveness of the agency's
overall equal employment opportunity effort;
(11) Provide the maximum feasible opportunity to employees to enhance their skills
through on-the-job training, work-study programs and other training measures so that
they may perform at their highest potential and advance in accordance with their abilities;
(12) Inform its employees and recognized labor organizations of the affirmative equal
employment opportunity policy and program and enlist their cooperation; and
(13) Participate at the community level with other employers, with schools and
universities and with other public and private groups in cooperative action to improve
employment opportunities and community conditions that affect employability.

(b) In order to implement its program, each agency shall:
(1) Develop the plans, procedures and regulations necessary to carry out its program;
(2) Appraise its personnel operations at regular intervals to assure their conformity with
its program, this part 1614 and the instructions contained in the Commission's
management directives;
(3) Designate a Director of Equal Employment Opportunity (EEO Director), EEO
Officer(s), and such Special Emphasis Program Managers (e.g., People With Disabilities
Program, Federal Women's Program and Hispanic Employment Program), clerical and
administrative support as may be necessary to carry out the functions described in this
part in all organizational units of the agency and at all agency installations. The EEO
Director shall be under the immediate supervision of the agency head;
(4) Make written materials available to all employees and applicants informing them of
the variety of equal employment opportunity programs and administrative and judicial
remedial procedures available to them and prominently post such written materials in all
personnel and EEO offices and throughout the workplace;
(5) Ensure that full cooperation is provided by all agency employees to EEO Counselors
and agency EEO personnel in the processing and resolution of pre-complaint matters and
complaints within an agency and that full cooperation is provided to the Commission in
the course of appeals, including granting the Commission routine access to personnel
records of the agency when required in connection with an investigation; and
(6) Publicize to all employees and post at all times the names, business telephone
numbers and business addresses of the EEO Counselors (unless the counseling function is
centralized, in which case only the telephone number and address need be publicized and
posted), a notice of the time limits and necessity of contacting a Counselor before filing a
complaint and the telephone numbers and addresses of the EEO Director, EEO Officer(s)
and Special Emphasis Program Managers.



                                             2                Office of Inspector General
                                                                  Export-Import Bank of the United States
Equal Employment Opportunity                                                    OIG-SR-10-01 

                                     Special Report 



II.	   OBJECTIVES

The objectives of this review were to determine whether Export-Import Bank of the
United States (Ex-Im Bank) has policies in place to promote EEO and assess the degree
to which the Equal Opportunity and Diversity Programs (EODP) Office is independent.


III.	 SCOPE AND METHODOLOGY

We interviewed Ex-Im Bank’s EODP Director and Senior Vice President of Resource
Management. We also interviewed Ex-Im Bank’s Equal Employment Specialist at the
U.S. Equal Employment Opportunity Commission. Finally, we reviewed information
available on the Ex-Im Bank’s Equal Opportunity internal and external websites.

We conducted our fieldwork from July 28, 2010 to July 30, 2010.

We performed a limited review to address an inquiry from Senator Charles E. Grassley
on the adequacy of Ex-Im Bank’s EEO program.


IV.	 FINDINGS AND SUGGESTIONS


A.	    REVIEW OF THE EFFECTIVENESS OF THE EQUAL EMPLOYMENT
       OPPORTUNITY AND DIVERSITY PROGRAMS IS NEEDED

Ex-Im Bank’s internal and external websites communicate its support of the
government’s goal to provide equal opportunity in employment for all persons and to
prohibit discrimination in employment. The websites display EODP’s mission and
vision, and provides contact and other information to aid in ensuring equal opportunity to
all employees, applicants and members of the public who seek to participate in Ex-Im
Bank programs and services. Furthermore, internal policies address the mission and
vision statements.

While the above efforts promote equal opportunity and diversity, further action is needed
to ensure the program is effective. U.S. Equal Employment Opportunity Commission’s
Equal Employment Specialist planned to conduct a technical assistance review at Ex-Im
Bank in March 2010, but the EODP Director cancelled the review the day before it was
to take place. The Equal Employment Specialist stated that the EODP Director has not
contacted the U.S. Equal Employment Opportunity Commission to reschedule the
review.



                                            3	               Office of Inspector General
                                                                 Export-Import Bank of the United States
Equal Employment Opportunity                                                    OIG-SR-10-01 

                                     Special Report 



Suggestion 1
The EODP Director should promptly schedule a U.S. Equal Employment Opportunity
Commission technical assistance review.

Management Response
The Senior Vice President and General Counsel stated that Ex-Im Bank will implement
the suggested action.



B.	    INDEPENDENCE OF THE OFFICE OF EQUAL OPPORTUNITY AND
       DIVERSITY PROGRAMS NEEDS STRENGTHENING

Ex-Im Bank has no assurance that it is able to achieve EODP’s mission. Because
EODP’s Director reports to the Director of Human Resources and Senior Vice President
of Resource Management, the appearance that EODP may not be independent could
impair its efforts. The EODP Director advised the auditors that the Office is independent
since all EEO matters are directly reported to the Senior Vice President of Resource
Management. However, we were informed that the Director of Human Resources
provides input to the EODP Director’s performance appraisal.

Based on the above relationships between the EODP Office and the Director of Human
Resources and Senior Vice President of Resource Management, it is reasonable to
conclude that EODP’s independence could be in question. The appearance of non-
independence may hinder Ex-Im Bank’s EEO efforts and discourage individuals from
filing a complaint. According to the Ex-Im Bank’s Notification and Federal Employee
Anti-discrimination and Retaliation (NoFEAR) Act of 2002 report, a complaint has not
been filed since 2007 (see below).

                                             FY 2010
          Complaint Activity                                2009 2008 2007 2006 2005
                                        4th 3rd 2nd 1st
      Number of Complaints Filed                   0    0    0       0         1         0         2
       Number of Complainants                      0    0    0       0         1         0         2
             Repeat Filers                         0    0    0       0         0         0         0
(Source: http://www.exim.gov/about/jobs/nofear.cfm)

Title 29, subtitle B, chapter XIV, part 1614.102 states “The EEO Director shall be under
the immediate supervision of the agency head.” U.S. Equal Employment Opportunity
Commission’s Annual Report on the Federal Work Force Fiscal Year 2009 reported:
“Of 93 agencies (with 100 or more employees), 69 (74.2%) reported that the EEO
Director reports directly to the agency head.”


                                            4	              Office of Inspector General
                                                                 Export-Import Bank of the United States
Equal Employment Opportunity                                                  OIG-SR-10-01 

                                    Special Report 



Ex-Im Bank’s Equal Employment Specialist at the U.S. Equal Employment Opportunity
Commission stated that several government agencies have been granted a waiver due to
their small size. However, a waiver has not been granted to Ex-Im Bank. The Equal
Employment Specialist planned to address this issue when conducting a technical
assistance review at Ex-Im Bank, but did not believe that a waiver would be granted
because Ex-Im Bank has almost 400 employees.


Suggestion 2
The Chairman and President should direct the EODP Director to report directly to the
Chairman and President.


Management Response
The Senior Vice President and General Counsel stated that Ex-Im Bank will implement
the suggested action.




                                           5               Office of Inspector General
                                                               Export-Import Bank of the United States
Equal Employment Opportunity                                        OIG-SR-10-01 

                               Special Report 




APPENDIX A:        MANAGEMENT RESPONSE 





                           SEE NEXT PAGE 





                                     6            Office of Inspector General
                                                     Export-Import Bank of the United States
                                      EXPORT-IMPORT BANK
                                       OF THE UNITED STATES

OFFICE OF THE GENERAL COUNSEL


      August 16,2010

      Ms. Jean Smith
      Assistant Inspector General for Audit
      Office of Inspector General
      Export-Import Bank of the United States

      Re: Equal Employment Opportunity Special Report

      Dear Jean:

      Thanlc you for the opportunity to review and comment on the findings and suggestions
      presented in the draft Special Report on Equal Employment Opportunity (EEO). The
      Bank appreciates the suggestions and will implement the recommendations in full.

      The Bank takes EEO issues seriously. As recently as June 2010, Chairman Hochberg
      issued statements emphasizing the Bank's commitment to EEO principles such as
      reasonable accommodation for qualified applicants and employees with a disability, as
      well as its policy of zero tolerance for harassment and retaliation. To ensure these
      policies are well-communicated, the Bank holds annual mandatory EEO training
      sessions.

       As a result of its efforts to foster an environment free from unlawful discrimination,
       harassment, and retaliation, the Bank has had no EEO complaints filed against it since
       2007 and currently has no employment-related complaints pending in any court,
       administrative tribunal, or other adjudicative body. Although the Bank is proud of its
       record, management continuously seeks to improve upon it and is grateful for your
       suggestions.

                             Sincerely


                                  lan J. Cordone
                             Senior Vice-President
                             and General Counsel




                            811 VERMONT AVENUE, N.W WASHINGTON, D.C. 20571
Office of Inspector General
Export-Import Bank of the United States
811 Vermont Avenue, NW
Washington, DC 20571
202-565-3908
www.exim.gov/oig
